Department of Homeland Security
   Ofﬁce of Inspector General


            Removals Involving Illegal Alien 

                       Parents of 

             United States Citizen Children





OIG-09-15                                        January 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     January 12, 2009

                                         Preface

The Department of Homeland Security, Office of Inspector General, was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the number of instances over the past 10 years in which the illegal
alien parent of a United States citizen child was removed from the country. It is based on
interviews with employees and officials of relevant agencies and institutions and a review
of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.



                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................4


     Alien Removals Exceed Two Million Between FYs 1998 and 2007 ............................4 


     More Than 100,000 Alien Parents of U.S. Citizen Children Were Removed Between
      FYs 1998 and 2007 .....................................................................................................5 

     Recommendations..........................................................................................................7 

     Management Comments and OIG Analysis ..................................................................8 


     Alien Parents Were Removed for Multiple Reasons .....................................................8 


     ICE Does Not Collect Data on Length of Residence or Child Residence ..................10 


     U.S. Citizen Children Were Not Held in Detention.....................................................11 


Appendices
     Appendix A:          Purpose, Scope, and Methodology .......................................................13 

     Appendix B:          Management Comments to the Draft Report ......................................15 

     Appendix C:          Types of Crimes Committed by Alien Parents......................................17 

     Appendix D:          Major Contributors to This Report .......................................................18 

     Appendix E:          Report Distribution ...............................................................................19 


Abbreviations
     CBP                  Customs and Border Protection 

     COBOL                Common Business-Oriented Language 

     DACS                 Deportable Alien Control System

     DHS                  Department of Homeland Security 

     DRO                  Office of Detention and Removal Operations 

     ENFORCE              Enforcement Case Tracking System

     ICE                  Immigration and Customs Enforcement 

     NCIC                 National Crime Information Center 

     OIG                  Office of Inspector General 

     OIS                  Office of Immigration Statistics 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    The Committee on Appropriations for the House of
                    Representatives directed the Department of Homeland Security
                    Office of Inspector General, through H. Rep. 110-181, to report on
                    detentions and removals involving U.S. citizen children and their
                    parents among Immigration and Customs Enforcement’s detention
                    center population over the past 10 years. The requested data
                    included: (1) the total number of aliens removed from the United
                    States; (2) the number of instances in which one or both parents of
                    a U.S. citizen child were removed; (3) the reason for the parents’
                    removal; (4) the length of time the parents lived in the United
                    States before removal; (5) whether the U.S. citizen children
                    remained in the United States after the parents’ removal; and
                    (6) the number of days a U.S. citizen child was held in detention.

                    The United States conducted 2,199,138 alien removals between
                    FYs 1998 and 2007. Existing data indicate that these removals
                    involved 108,434 alien parents of U.S. citizen children. Alien
                    parents were removed because of immigration violations, such as
                    being present without authorization or committing criminal
                    violations that affect immigration status. Data limitations decrease
                    the reliability of these results, including the absence of a
                    requirement for staff to collect data that establish which aliens are
                    the parents of U.S. citizen children.

                    We were unable to compile all the requested data because
                    Immigration and Customs Enforcement does not collect the
                    following specific information: (1) the number of instances in
                    which both parents of a particular child were removed; (2) the
                    length of time a parent lived in the United States before removal;
                    and (3) whether the U.S. citizen children remained in the United
                    States after the parents’ removal. Immigration and Customs
                    Enforcement reported detaining no U.S. citizen children.

                    We are recommending that Immigration and Customs Enforcement
                    analyze and report on the feasibility of establishing procedures to
                    document the number of removed alien parents and the age of
                    aliens’ children to indicate whether they are minors or adults.


           Removals Involving Illegal Alien Parents of United States Citizen Children

                                            Page 1
Background
                   The 1952 Immigration and Nationality Act established the basic structure
                   of today’s U.S. immigration law, including the procedures for removing
                   an alien. U.S. immigration law provided opportunities for discretionary
                   relief from removal for aliens who were lawfully admitted as permanent
                   residents but who faced removal because they had criminal convictions.
                   For example, the law allowed aliens who had substantial ties to the United
                   States, including spouses and children, to prove to an immigration judge
                   that the negative aspects of their convictions were outweighed by their
                   U.S. connections. In addition, removal could be suspended if the illegal
                   alien could establish that: (1) he or she had been physically present in the
                   United States continuously for 7 years before the application of the
                   suspension; (2) he or she was of good moral character; and (3) the
                   deportation would result in extreme hardship to the deportee or his or her
                   spouse, parent, or child who is a U.S. citizen or permanent resident.

                   In 1996, Congress adopted the Antiterrorism and Effective Death Penalty
                   Act and the Illegal Immigration Reform and Immigrant Responsibility Act.
                   The 1996 laws changed the guidelines for removing noncitizens with
                   criminal convictions. The laws expanded the list of aggravated felonies,
                   crimes for which one offense makes an alien removable, by adding many
                   types of crimes and lowering the threshold for other crimes to qualify as
                   aggravated felonies. In addition to murder and drug or firearms
                   trafficking, aggravated felonies now include all crimes of violence or theft
                   when the term of imprisonment is a year or more, as well as numerous
                   other crimes.1 If removed, aggravated felons are permanently barred from
                   reentering the United States unless the Attorney General provides
                   permission for reentry.2

                   Legal changes in the 1990s also decreased other defenses against removal,
                   even for aliens who are not aggravated felons. Previously, permanent
                   resident aliens who had committed crimes but resided in the United States
                   for 7 years could seek a hearing for discretionary relief from removal if
                   their positive circumstances—such as family ties—outweighed the
                   negative aspect of their crime. Currently, aliens who have committed
                   certain crimes that are not aggravated felonies may be granted a waiver
                   under limited circumstances, one of which is preventing “extreme”
                   hardship to the alien’s U.S. citizen or permanent resident child, spouse, or



1
    8 USC § 1101(a)(43).
2
    8 USC § 1182(a)(9)(A).




                   Removals Involving Illegal Alien Parents of United States Citizen Children

                                                    Page 2
                 parent.3 Once removed, aliens who are not aggravated felons are barred
                 from reentering the United States for five to twenty years.4

                          Alien Removal Data Tracking Systems

                          Immigration and Customs Enforcement (ICE) obtained data from
                          the Deportable Alien Control System (DACS). DACS is a
                          25-year-old Common Business-Oriented Language (COBOL)­
                          based system that ICE field offices use to track detainees. DACS
                          automates many of the clerical control functions associated with
                          the arrest, detention, and removal of illegal aliens. Information
                          recorded in DACS for each detainee includes items such as alien
                          registration number, name, country of origin, book-in date, and
                          detention facility where the alien is housed. We used DACS to
                          determine which removals involved alien parents of U.S. citizen
                          children.

                          Previously, the Department of Justice Office of Inspector General
                          (OIG), the Government Accountability Office, and our office have
                          reported on several general limitations of DACS data.5 Some of
                          the concerns with the reliability and responsiveness of DACS data
                          include the following:

                              �	 Data entry was untimely and needed better management
                                 controls.
                              �	 Data regarding aliens and final removal actions were not
                                 consistently recorded.
                              �	 DACS users did not receive sufficient training.
                              �	 Written standards to ensure the quality of data entry were
                                 unavailable.

                          In addition, ICE officials said that information and reports are
                          difficult to retrieve from DACS because of the limited number of
                          programmers who can create COBOL queries.

                          As of August 2008, ICE completed the transfer of DACS removal
                          data into the Enforcement Case Tracking System (ENFORCE)
3
  8 USC § 1182(h).

4
  8 USC § 1182(a)(9). 

5
  DHS OIG, Review of U.S. Immigration and Customs Enforcement’s Detainee Tracking Process, OIG-07­
08, November 2006; DHS OIG, Detention and Removal of Illegal Aliens, OIG-06-33, April 2006; 

Department of Justice OIG, The Immigration and Naturalization Service’s Removal of Aliens Issued Final 

Orders, I-2003-04, February 2003; Government Accountability Office, Immigration Enforcement: Better 

Data and Controls Are Needed to Assure Consistency with Supreme Court Decision on Long-Term Alien 

Detention, GAO-04-434, May 2004. 




                 Removals Involving Illegal Alien Parents of United States Citizen Children

                                                  Page 3
                   Alien Removal Module. DACS was still in use during our
                   fieldwork, but it has been phased out since the module has been
                   deployed nationwide. Established in 1996, ENFORCE supports
                   web-based data entry and has other improvements as well. In
                   addition to removal data, ENFORCE records alien apprehensions
                   conducted by ICE and the Offices of the Border Patrol and Field
                   Operations in Customs and Border Protection (CBP).

                   Before ICE was created in 2003, the Immigration and
                   Naturalization Service recorded alien data in ENFORCE and
                   DACS. Currently, the Department of Homeland Security Office of
                   Immigration Statistics (OIS) uses DACS data to determine formal
                   removals, and uses ENFORCE and DACS data to compile various
                   immigration enforcement reports.


Results of Review
          Between FYs 1998 and 2007, 2,199,138 alien removals occurred in the
          United States, involving 108,434 alien parents of U.S. citizen children.
          Alien parents were removed because of immigration violations, such as
          being present without authorization or committing criminal violations that
          affect immigration status. ICE does not collect data on the following
          requested items: (1) the number of instances in which both parents were
          removed; (2) the length of time a parent lived in the United States before
          removal; or (3) whether the U.S. citizen children remained in the United
          States after the parents’ removal. ICE reported detaining no U.S. citizen
          children.

     Alien Removals Exceed Two Million Between FYs 1998 and 2007
          OIS uses DACS and ENFORCE data, including removals conducted by
          ICE, CBP, and the Immigration and Naturalization Service, to publish data
          on the number of aliens removed from the United States. OIS data in
          Figure 1 include aliens who were compelled to leave the United States
          based on an order of removal, including expedited removals. Voluntary
          departures without an order of removal, such as Mexican nationals
          returned to Mexico by the Border Patrol, are not included. The data are
          based on each removal, and aliens who were removed more than once are
          counted multiple times.




          Removals Involving Illegal Alien Parents of United States Citizen Children

                                           Page 4
     Figure 1. Alien Removals per Fiscal Year
      350,000
                                                                                                    319,382

      300,000
                                                                                          280,974


      250,000                                                           240,665 246,431

                                                              211,098
      200,000             183,114 188,467 189,026
                174,813
                                                    165,168

      150,000



      100,000



       50,000



            0
                 1998      1999    2000     2001     2002      2003      2004    2005      2006      2007

     Source: OIS, 2007 Yearbook of Immigration Statistics.

     This data is current as of July 2008. Owing to the time lag in data entry
     for removals, OIS updates the data each year and does not consider the
     data complete until 3 years have elapsed.


More Than 100,000 Alien Parents of U.S. Citizen Children Were
Removed Between FYs 1998 and 2007
     Our analysis provides an approximate number of removals involving one
     alien parent of a U.S. citizen child. We were unable to establish whether
     both parents of a child were removed because the family relationships
     between different alien records in DACS are not clear.

     According to DACS data, 108,434 alien parents of U.S. citizen children
     were removed between FYs 1998 and 2007. More than a third of the
     parents—40,260 or 37.1%—were previous offenders who returned to the
     United States after their first removal and subsequently were removed on
     other occasions during the 10-year period. As a result, the total number of
     parent removals was 180,466.

     The number of parent removals has generally increased since FY 1998,
     with a peak in FY 2004. We counted individual parents’ removal year
     according to their earliest removal in our data set. Figure 2 shows that



     Removals Involving Illegal Alien Parents of United States Citizen Children

                                          Page 5
fewer parents were removed for the first time in FYs 2006 and 2007 than
in previous years, and many of these removals involved recidivists.

Figure 2. Removals Involving Alien Parents of U.S. Citizen Children
   Fiscal      Individual Parents         Total Removals of Alien
    Year            Removed                        Parents
   1998               13,081                       14,001
   1999               13,410                       15,914
   2000               11,848                       15,851
   2001               11,138                       16,807
   2002                9,922                       16,528
   2003               11,586                       20,864
   2004               11,074                       21,965
   2005                9,981                       20,939
   2006                8,460                       19,360
   2007                7,934                       18,237
   Total             108,434                       180,466
Source: OIG analysis of DACS data from August 7, 2008.

Although the data set has several specific limitations, we used it in our
analysis because it is the primary recorded source of this information. In
addition to the general limitations of DACS data previously described, the
following are specific limitations of ICE’s data regarding whether aliens
are parents of U.S. citizen children:

         �	 ICE does not require staff to record this data in DACS; data
            entry on the immigration status of aliens’ children is optional.

         �	 The child status data is not updated when family structure
            changes owing to birth, death, marriage, divorce, or other
            reasons.

         �	 The DACS data do not include some aliens who depart without
            an order of removal. For example, alien parents who are
            apprehended at the border shortly after crossing may agree to
            return voluntarily. These parents may have U.S. citizen
            children from previous time in the United States, but their child
            status information is not collected in DACS because their
            departure is a voluntary return.

         �	 The child status data does not distinguish between adult
            children and minor children. The recorded data are based on
            the family relationship without reference to the child’s age.




Removals Involving Illegal Alien Parents of United States Citizen Children

                                 Page 6
                ICE officials also told us that an alien may not provide child status
                information, or may provide misleading or incomplete information, for
                fear that government authorities may apprehend family members.

                Even in the absence of complete and accurate documentation, ICE records
                show that a significant number of alien parent removals occurred.
                However, because ICE has made the collection of child status data
                voluntary, current data are not comprehensive. A more complete data set
                is paramount in evaluating proposed legislative and policy options to
                reduce or prevent parent removals in specific circumstances.6 The costs
                and benefits of these options could be more accurately assessed if data on
                the magnitude and characteristics of the alien parent population were
                available. Therefore, ICE should analyze and report on the feasibility of
                requiring staff to collect and document the number of removed aliens who
                are parents of U.S. citizen children.

                In addition, ICE should assess the feasibility of requiring staff to collect
                new data to establish the age of a child when a parent is removed.
                Because minors do not have legal and financial independence, they may
                be more affected by a parent’s removal than adult children. In addition,
                minor children are unable to request immigration benefits for their parents,
                unlike adult children who are 21 years old or older. New data on
                children’s ages would help establish the effect of alien parent removals on
                U.S. citizen children who are minors.

                Recommendations
                         We recommend that the Assistant Secretary, ICE:

                         Recommendation 1: Analyze and report on the feasibility of
                         establishing procedures to ensure that data on the number of
                         removed aliens who are parents of U.S. citizen children are
                         collected and documented.

                         Recommendation 2: Analyze and report on the feasibility of
                         establishing procedures to document whether the U.S. citizen
                         children of removed aliens are minors at the time of the removal of
                         the alien parent(s).




6
 H.R. 5035, 109th Cong. (2006); Human Rights Watch, Forced Apart: Families Separated and Immigrants
Harmed by United States Deportation Policy, July 2007.



                Removals Involving Illegal Alien Parents of United States Citizen Children

                                                 Page 7
     Management Comments and OIG Analysis
              We evaluated technical and written comments prepared by ICE
              regarding our draft report and, where appropriate, made changes to
              ensure the accuracy of information. ICE management agreed with
              the report findings and recommendations, and provided corrective
              actions for all recommendations. A copy of ICE’s written
              comments, in its entirety, is included as Appendix B.

              ICE’s Response to Recommendation 1:

              ICE agreed with our recommendation, and will initiate a study of
              this issue within 60 days of OIG’s final report.

              OIG Analysis: We consider ICE’s comments responsive to the
              recommendation, which is resolved and open pending our receipt
              of the results and analysis of ICE’s study of this issue.

              ICE’s Response to Recommendation 2:

              ICE agreed with our recommendation, and will initiate a study on
              this issue within 60 days of OIG’s final report.

              OIG Analysis: We consider ICE’s comments responsive to the
              recommendation, which is resolved and open pending our receipt
              of the results and analysis of ICE’s study of this issue.


Alien Parents Were Removed for Multiple Reasons
     For aliens to be removable, they must have committed an immigration
     violation according to the Immigration and Nationality Act. The particular
     reason under the Act for which an alien is removed is recorded in DACS
     as the “final charge.” Most final charge types refer to an immigration
     issue directly, such as being present without authorization or attempting
     entry without proper documentation. Some final charge types relate to
     other issues that affect immigration status, such as criminal violations,
     national security grounds, or health reasons. The most common final
     charge categories for alien parent removals were “present without
     authorization” and “criminal violations.”

     According to ICE and OIS staff, the final charge recorded in DACS may
     not reflect the most serious charge for the removal. Aliens who are
     criminals may be removed under a different final charge for the



     Removals Involving Illegal Alien Parents of United States Citizen Children

                                      Page 8
convenience of the government. For example, our data set includes aliens
convicted of homicide who were removed under the final charge category
“present without authorization” rather than “criminal violations.” In
addition, the government may prove more than one charge; however,
DACS allows only one data entry for final charge.

We aggregated the final charge data using categories developed by OIS.
The “other” category includes certain reentry violations, health conditions,
and other reasons. Figure 3 depicts the final charge categories for the
180,466 parent removals between FYs 1998 and 2007.

Figure 3. Final Charge Category per Removal
 Final Charge Category                                                       Removals
 Present without authorization                                                68,179
 Criminal violations                                                          63,510
 Previously removed, ineligible for reentry                                   25,604
 Attempted entry without proper documents or through fraud
                                                                              20,340
 or misrepresentation
 Public charge                                                                1,118
 Smuggling or aiding illegal entry                                             725
 Failed to maintain status                                                     664
 Other                                                                         313
 National security and related grounds                                          13
 Total Parent Removals                                                       180,466
Source: OIG analysis of DACS data from August 7, 2008.

To supplement the final charge data, we reviewed criminal history data in
DACS. DACS can track up to five criminal convictions per alien using
crime codes from the Department of Justice’s National Crime Information
Center (NCIC). DACS includes NCIC crime codes for charges that have
not yet resulted in a conviction; however, we restricted our data to
convictions. Among alien parents of U.S. citizen children, 24,076, or
22.2%, had no recorded convictions, while the remaining 77.8% had one
or more convictions.




Removals Involving Illegal Alien Parents of United States Citizen Children

                                 Page 9
     Figure 4. Convictions per Alien Parent



                      5% 6%                                             No convictions
                                                22%
               10%                                                      One conviction

                                                                        Two convictions

                                                                        Three convictions
               19%
                                                                        Four convictions
                                                38%

                                                                        Five convictions



     Source: OIG analysis of DACS data from August 7, 2008.

     The DACS user manual includes more than 400 NCIC codes for the types
     of crimes aliens may have committed. We aggregated the data on criminal
     convictions using categories developed by OIS. More than half of the
     convictions recorded in DACS were related to one of three offenses:
     dangerous drugs—57,803 or 34.0%, immigration—24,344 or 14.3%, or
     assault—12,555 or 7.4%. See Appendix C for a complete list.

     DACS also contains data on whether aliens committed aggravated felonies.
     Aggravated felonies are crimes of such seriousness that a single offense
     renders an alien removable under the Immigration and Nationality Act. The
     act defines more than 20 crimes as aggravated felonies. The majority of
     alien parents removed, 61,590 or 56.8%, were aggravated felons.


ICE Does Not Collect Data on Length of Residence or Child
Residence
     ICE does not collect data on the full length of time an alien is present in
     the United States before removal. DACS contains data on an alien’s most
     recent date of entry into the United States; however, no DACS field shows
     the alien’s date of first entry. Because many aliens leave and reenter the
     country, the data on the most recent date of entry was unreliable for



     Removals Involving Illegal Alien Parents of United States Citizen Children

                                      Page 10
                   calculating the full length of time that alien parents lived in the United
                   States before removal. In addition, DACS data do not indicate where
                   aliens’ children reside or whether they depart the United States with a
                   removed parent.


          U.S. Citizen Children Were Not Held in Detention
                   ICE does not have records of holding U.S. citizen children in detention.
                   ICE officials said that there were no instances of detaining U.S. citizen
                   children and that ICE would not knowingly hold a U.S. citizen child in
                   detention.

                   Before a person may be placed in immigration detention, staff from CBP’s
                   Office of Border Patrol, the Office of Field Operations, or ICE agents
                   from the Office of Investigations must determine that the person is a
                   removable alien. This determination may be based on interviews and
                   other evidence. Known U.S. citizens are not placed in immigration
                   detention. ICE officials said that if CBP or ICE identifies the child as a
                   U.S. citizen, the child is released to the parent’s designated custodian or to
                   Child Protective Services. In the case of Kebin Reyes, a U.S. citizen child
                   who accompanied his alien father during an immigration apprehension,
                   ICE reported in its February 13, 2008, testimony to Congress that it
                   released the child to the father’s designated custodian as soon as the
                   custodian was identified and located.

                   In cases involving alien children, the apprehending office contacts a
                   juvenile coordinator in the Juvenile and Family Residential Management
                   Unit within ICE’s Office of Detention and Removal Operations (DRO).
                   This unit operates two housing facilities for alien family groups, and it
                   also serves as a conduit to place unaccompanied alien children in the
                   custody of the Office of Refugee Resettlement in the Department of
                   Health and Human Services. The juvenile coordinator reviews the
                   determination that the child is a removable alien before arranging
                   detention for the child. If the child’s alien status is in question,
                   headquarters officials in the Juvenile and Family Residential Management
                   Unit assist in the determination. If the alien status of a child under 5 years
                   of age is unclear, the unit treats the child as a U.S. citizen based on the
                   Immigration and Nationality Act rules for birth citizenship, and does not
                   detain the child.7




7
    8 USC § 1401(f).



                   Removals Involving Illegal Alien Parents of United States Citizen Children

                                                    Page 11
ICE recently supplemented the policies that protect against the detention
of U.S. citizens. On May 23, 2008, DRO issued a memorandum requiring
the full investigation of all affirmative claims to U.S. citizenship before a
person is taken into custody. If the person is already in ICE custody, the
investigation must take place before final disposition of the case. This
memorandum has been integrated into the national standard operating
procedures for all DRO field offices.




Removals Involving Illegal Alien Parents of United States Citizen Children

                                 Page 12
Appendix A
Purpose, Scope, and Methodology


                             The House of Representatives Committee on Appropriations
                             directed that we review ICE’s detention center population over the
                             past 10 years for data related to the removal of the alien parents of
                             U.S. citizen children.8 The requested data included: (1) the total
                             number of U.S. removals; (2) the number of instances in which one
                             or both parents of a U.S. citizen child was removed; (3) the reason
                             for the parents’ removal; (4) the length of time the parents lived in
                             the United States before removal; (5) whether the U.S. citizen
                             children remained in the United States after the parents’ removal;
                             and (6) the number of days a U.S. citizen child was held in
                             detention.

                             We interviewed officials from OIS and ICE headquarters in
                             Washington, DC, to become familiar with the process used to
                             collect and report information on detentions and removals. In
                             addition, we reviewed reports from OIS; ICE documentation,
                             including the DACS user manual and detention standards;
                             immigration laws and regulations; reports from the Government
                             Accountability Office, the Department of Justice Office of
                             Inspector General, and our office on the reliability of detention and
                             removal data; and other related reports and articles.

                             We obtained data on the number of illegal aliens removed between
                             FYs 1998 and 2007 from the OIS 2007 Yearbook of Immigration
                             Statistics. Because we were asked to report on the detained
                             population, we focused on formal removals recorded in DACS,
                             which does not include data on most voluntary departures and
                             returns. To compile the data on illegal parents removed, we asked
                             ICE to provide more specific data from DACS on illegal aliens
                             removed between FYs 1998 and 2007. We requested that ICE
                             limit the list to aliens with an entry in the CHILD-STAT data field,
                             which indicates whether the illegal alien is the parent of a U.S.
                             citizen child. We also requested data fields related to the illegal
                             aliens’ family status, reason for removal, and length of time in the
                             United States before removal.

                             Using computer-assisted auditing techniques, we eliminated
                             duplicate and inapplicable records, reducing 474,783 records to
                             180,466. The resulting figure provided the number of removals
                             involving illegal alien parents of U.S. citizen children. Using alien
                             registration numbers, we grouped cases where one illegal parent
8
    H. Rep. 110-181, at 26 (2007).



                    Removals Involving Illegal Alien Parents of United States Citizen Children

                                                     Page 13
Appendix A
Purpose, Scope, and Methodology

                     had been removed multiple times to find the number of individual
                     illegal parents removed. For these individual parents, we counted
                     the removal year based on their earliest removal in our 10-year
                     data set. When reviewing criminal history, we excluded crimes
                     that had not resulted in a conviction. We aggregated the data on
                     criminal convictions and final charge for removal using categories
                     developed by OIS.

                     We conducted our fieldwork from April to August 2008. This
                     review was conducted under the authority of the Inspector General
                     Act of 1978, as amended, and according to the Quality Standards
                     for Inspections, issued by the President’s Council on Integrity and
                     Efficiency.




            Removals Involving Illegal Alien Parents of United States Citizen Children

                                             Page 14
Appendix B
Management Comments to the Draft Report




            Removals Involving Illegal Alien Parents of United States Citizen Children 


                                             Page 15

Appendix B
Management Comments to the Draft Report




            Removals Involving Illegal Alien Parents of United States Citizen Children 


                                             Page 16

Appendix C
Types of Crimes Committed by Alien Parents


              Category of Criminal Conviction                                             Total
             Dangerous Drugs                                                                57,803
             Immigration                                                                    24,344
             Traffic Offenses                                                               12,555
             Assault                                                                        12,490
             Family Offenses                                                                 8,603
             Burglary                                                                        8,179
             Larceny                                                                         6,645
             Weapon Offenses                                                                 5,863
             Stolen Vehicle                                                                  4,159
             Robbery                                                                         3,571
             Obstructing Judiciary, Congress, Legislature                                    3,350
             Sexual Assault                                                                  3,185
             Sex Offenses (not involving assault or commercialized sex)                      3,051
             Stolen Property                                                                 2,710
             Fraudulent Activities                                                           2,509
             Forgery                                                                         2,114
             Obstructing the Police                                                          1,739
             Public Peace                                                                    1,133
             Homicide                                                                          994
             Health Safety                                                                     776
             Invasion of Privacy                                                               700
             Damage to Property                                                                561
             Kidnapping                                                                        547
             Flight, Escape                                                                    465
             Commercialized Sexual Offenses                                                    295
             Crimes Against Person                                                             241
             Public Order Crimes                                                               234
             Property Crimes                                                                   209
             Arson                                                                             185
             Extortion                                                                         171
             Liquor                                                                             99
             Embezzlement                                                                       88
             Smuggling                                                                          75
             Bribery                                                                            66
             Juvenile Offenders                                                                 64
             Tax Revenue                                                                        52
             Gambling                                                                           29
             Morals Crimes                                                                      28
             Threats                                                                            25
             Obscenity                                                                          24
             Sovereignty                                                                        14
             Conservation                                                                       13
             Abortion                                                                            6
             Military                                                                            5
             Civil Rights                                                                        3
             Total Alien Parent Convictions Recorded in DACS                               169,972
            Source: OIG analysis of DACS data from August 7, 2008.




             Removals Involving Illegal Alien Parents of United States Citizen Children

                                              Page 17
Appendix D
Major Contributors to This Report


                      Deborah Outten-Mills, Chief Inspector, Department of Homeland
                      Security, Office of Inspections

                      M. Faizul Islam, Senior Inspector, Department of Homeland
                      Security, Office of Inspections

                      Wynne Kelch, Senior Inspector, Department of Homeland
                      Security, Office of Inspections




             Removals Involving Illegal Alien Parents of United States Citizen Children

                                              Page 18
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary for Immigration and Customs Enforcement
                      Audit Liaison, Immigration and Customs Enforcement
                      Audit Liaison, Office of Policy

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             Removals Involving Illegal Alien Parents of United States Citizen Children 


                                              Page 19

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
